Report No. D-2011-044           February 23, 2011





      Reimbursable Fees at Four Major Range 

              and Test Facility Bases

                                                INSPECTOR GENERAL
                                               DEPAATMENT OF DEFE NSE
                                                 400 ARMY NAVY DRIVE
                                           ARLINGTON , VIRQINIA 22202-(704
                                                                                                February 2), lOl l

MEMORANDUM FOR UNDER SECRfiTARY OF DEFENSE FOR ACQU ISITION>
                 TECII NOLOGY, AND LOOISllCS
               UND ER SECRETARY OF DEFENSE (COMPTROLLERyooD
                  CIIIIW FINANC IAL Ql1FICER
               ASS ISTANT SECIU:.TARY OFTIIE AIR FORCE
                 (FINANCIA L MANAG EMliNr AN I)COMPlltOLl ER)
               DIRECTOR, TEST RESOURCE MANAG EM ENT CENTER
               NAVA L INSPECTOR GENERAL
               AUDITOR GENERA L. DEPARTMENT OF TIlE ARMY

SUBJECT: Reimbut'Sllble Fees ul Four Major Range and TIZI F.:ility Ilasa
                (RepOit No. 0-20 11·044)

The DoD Offi~ of Inspector Geneml performed an ludi! of reimbursDblt foes IllMjor ronge
a.nd test facil ity bases (MRTI'Bs) at tlle requcs of the OffICe of the: Under Secretary of Defense
for Acqui sition, Technology, and Logislics, T(S.I RI:$()UI"(:C Management Cc:n\el". We visited four
MRTFBs: Qne AnllY (West Desert Test Center at Dugway Proving Ground), ooe Navy (Nnvo l
Undersea Worfo", Center Oi" i$ion Keypor!), and two Ai. Foree IocaliOfll (Nevada Test.nd
Trai ni ng Range a rid Utah Test and Tmi ning Range).!

Our objocti ye was to delermine ...nether MRlTB ptlWMtl charged reimbursable foes
uppropriatelyand in a<:oo«iaoec with stattJlory, DoD, and Senoi<:e TCquircn-.ents. The FY 2003
National Defense Authorization Act, section 212 instructed range lC$t and ev. h.l. tion fac il ity
pel"SQnnel to eharge DoD ClIStomers Qnly ror those costs tha t are di rect ly aliribul Pble to the usc of
the facilhy or resource: for testing under a parueul ar prognlm, over and aboye the institutiollal
and o"emcad COSI5. 1bc statutory requirements were incl uded in the DoD Financial
Mall.geme nt Regu lation (DoD F'M R) 7000. 14·R. Se1vi~ requiremet\lS did not differ from the
DoD FMR. SpecirtClill y. our objective was to determ ine whetller MRTF f) person n~ 1 comp lied
wi!h !he DoD FMR 7000. 14-R, volume I I A, chaptet 12, "Major Range and Test r>aci lit ies;>
when charging DoD users ortllC test facI lity fOl" di recl costs identifi able wilh (I pl1l1icul nr
progr..m. Di R:Ct 00IitS iroeludcd labor, contracl labor (which inc loo C$ I porli()n or genero l and
adm inistmtive overhead), material , Ul ili ties, equipmen t, lind SIII'Ill ies.

We l"e'Iiewed JlCCounling ra:ords. prooc:dufCS. ~nd prllCtiees to determine tompllllllcc with !he
DoO FMR charge po licy. AI each MRTFB location, we selected. $Il mplc of ttst t'ICnlS I nd
analyzed the indi"idual cost ilems associllted with each e yent to det erm ine whether direcl costs
were readil y identifiable with the particular program .


• Tbe Teol Resource Manageme.n Ceme, rtql>eSled we . tview j MRl"FUI (0". Army> II¥!') NJ:Z> MIl II..,
Air FOfce); lIIi, repor1 addresse< 4 raci ll~ ( ..... Army. OIIC NIV)', Ind two Air FQI"I)e) aud tl... S r.dl~y (second
NoV)' MRTFB ) WIll ~ e otldressed d",iI" Project No. D20t (}.DOOOAIl-0290 000•• Audit ofRdmllursabia ~._ at
Rzqunt.~ Majar b og•• "" T." FlCility Oases."
MRTFB managers implemented the statutory requirement as incorporated into the April 2008
revised DoD reimbursable policy for range costs incurred for test and evaluation activities at
MRTFB sites. Specifically, MRTFB personnel:

       used detailed processes for estimating and recording reimbursable range costs,
       established a standard rate for the reimbursable fees or range costs,
       included appropriate separation of duties and levels of authorization into the cost-tracking
        process to protect vulnerable areas.

As a result, DoD users were appropriately charged for costs that were directly identifiable with
their particular program.

WEST DESERT TEST CENTER AT DUGWAY PROVING GROUND

West Desert Test Center (WDTC) officials performed 181 test events, valued at approximately
$44.9 million, during FY 2008. We reviewed 24 of the highest dollar value test events with
charges totaling $22 million.

WDTC established a standard rate for the reimbursable fees. According to WDTC officials, the
rates used for tests during FY 2008 were established in FY 2006. We recommended that WDTC
officials compare rates with other ranges such as Aberdeen Proving Ground and Yuma Proving
Ground to determine how rates at those ranges were established. WDTC officials stated that
they contacted other ranges and, as a result, they increased the rates at the WDTC for FY 2010.

WDTC officials used the Standard Operation and Maintenance Army Research and
Development System (SOMARDS) to track expenses for test projects. SOMARDS is a
combination of database files and accounting procedures and transactions with controls to ensure
that expenses are appropriately charged to the test project.

WDTC officials used detailed processes for estimating and recording reimbursable range costs.
WDTC officials assigned a project number that identifies the test customer, the job order
number, and the amount expensed in FY 2008. An obligation summary report identified the test
customer project number, detailed cost of each test item, and the type of expense for each test
customer.

We determined that the test events consisted of charges that were direct costs and clearly
identifiable with a particular program and that the itemized charges in the SOMARDS test report
were appropriate. Test report itemized charges were grouped in major categories such as civilian
labor, Government credit card purchases, and contracting support. Personnel at the WDTC
maintained effective controls, including building checks and balances into the cost-tracking
process to protect vulnerable areas. For example, WDTC personnel performed internal reviews
that included completed checklists that were in compliance with the DoD reimbursable policy for
test and evaluation activities noted in the DoD FMR volume 11A, chapter 12, as revised in
April 2008. The WDTC internal reviews did not detect any internal control deficiencies over
reimbursable fees.

                                                 2

 
NAVAL UNDERSEA WARFARE CENTER DIVISION KEYPORT

During FY 2008, the Naval Undersea Warfare Center (NUWC) Keyport officials engaged in
133 range events, primarily on-water or water-based research and development testing, totaling
$3.8 million. Range systems used for testing included tracking systems that provided time-
space-position information, fire control systems to program torpedoes, and launch systems used
to transfer torpedoes or test vehicles from firing craft. We selected the six largest of the NUWC
Keyport events, valued at $0.3 million, to review.
NUWC Keyport established a standard rate for the reimbursable fees by using direct product
account unit (hours) rates to charge customers for range events. The test event was assigned a
number of units for each direct product account to compute the cost of the test event. For the six
test events, we determined that the range officials charged users of the test facility for direct
costs that were identifiable with the particular test event.

NUWC Keyport personnel used detailed processes for estimating and recording reimbursable
range costs. For example, on October 1, 2007, the NUWC Keyport comptroller set FY 2008
range product account unit rates and established the business model to estimate and collect range
costs. Established rates required planned revenue to equal planned costs. The range manager
was expected to adjust rates if necessary, so that revenue and costs achieve a break even position
at fiscal year end. In accordance with NUWC Keyport guidance, rate adjustments were made
with the approval of the NUWC Keyport comptroller based on internal guidance on FY 2008
range direct product unit rates.
We determined that the test events consisted of items that were direct costs and readily
identifiable with a particular program. The more costly items included labor (both range craft
support and technical support), fuel for range craft, and travel costs for mariners and other
technicians. The labor costs were computed based on the number of staff hours on each range
craft and included technical support. The labor costs were calculated for tasks directly
attributable to the test event. NUWC Keyport maintained acceptable controls including building
checks and balances into the cost-tracking process to protect vulnerable areas. For example, a
primary NUWC Keyport control ensured that range branch officials verified that each employee
charged time to the correct test event before the data was entered into the Defense Industrial
Financial Management System (DIFMS) Support Services Query and Reporting system.2 This
resulted in customers being charged for legitimate, reimbursable expenses. Another NUWC
Keyport control ensured that the range control office reviewed the input from branch operations
personnel for accuracy and proper assignment of range event rates.
NEVADA TEST AND TRAINING RANGE
Nevada Test and Training Range (NTTR), Nellis AFB, Nevada, officials performed 17 test
exercises during FY 2008 totaling $1.01 million. We reviewed the six largest tests, with a total
value of $0.86 million, which represented 85 percent of the total dollar amount. NTTR program
                                                            
2
 The DIFMS Support Services Query and Reporting system is a local Keyport system that is a feeder system to
DIFMS. 


                                                               3

 
officials stated that the range is used 90 percent of the time for training and 10 percent of the
time for testing, but that testing functions had priority.
NTTR personnel used a detailed process for estimating and recording reimbursable range costs.
NTTR tests consisted of individually charged items called Element of Expense/Investment
Codes (EEIC) that represented a specific task and a corresponding dollar amount. Examples of
higher dollar value EEIC tasks were range airtime and munitions. Customers were billed based
on the number of units at the hourly rate to complete individual EEIC tasks. These tasks were
combined to determine the total cost of the test. We compared the charges (described as the
EEIC titles) in each test with the item in the range rate package and were able to match the
charges confirming that they were direct costs and traceable to the specific test. We reviewed
the charges for each of the selected tests and concluded that the charges were direct costs and
clearly identified with each specific test.
NTTR was transitioning from the Range Cost Accounting System to Job Order Cost Accounting
System II (JOCAS II).3 NTTR was in the process of establishing a standard rate for the
reimbursable fees through JOCAS II. JOCAS II was expected to produce a catalog of product
service rates and contain validation for range rates. The JOCAS II collects and stores data in
database tables on the host computer system and processes the data to provide information for
vouchers and bills. The detailed transactions are accumulated for each JOCAS II cost category
(labor, product, and service costs). JOCAS II would build checks and balances into the cost-
tracking process to protect vulnerable areas such as controls over automatic customer billing and
rate validation. For example, JOCAS II will collect detailed transactions that record expenses
related to specific job numbers. Further, JOCAS II job numbers will be established to track all
expenses through completion of the project.
UTAH TEST AND TRAINING RANGE

Utah Test and Training Range (UTTR), Hill AFB, Utah, personnel performed 29 different tests
during FY 2008 totaling $5.1 million. We selected the six largest tests, valued at $4 million, to
review how the user charges were determined and whether the items charged were direct costs.

UTTR personnel used detailed processes for estimating and recording reimbursable range costs.
The UTTR JOCAS II accounting system collected detailed transactions that recorded expenses
related to particular tests and cost centers. The detailed transactions were accumulated into
summarized transactions for each category of JOCAS II costs such as contractor labor, telemetry,
microwave communications, and Global Positioning System survey costs.

UTTR personnel also established a standard rate for the reimbursable fees through a product or
service provided by UTTR cost centers. The standard rate was computed based on a specified
expenditure of resources and was assigned a product identification number (PIN) such as
Telemetry Display (PIN TC600).


                                                            
3
 We limited our review of the NTTR Range Cost Accounting System as the system was being replaced with the
JOCAS II system. 


                                                               4

 
In addition, UTTR personnel maintained effective controls building checks and balances into the
cost-tracking process to protect vulnerable areas. For example, UTTR personnel used JOCAS II
summarized transactions for the creation of journal vouchers and automated customer billing.
Another UTTR internal control was system manager validation of weekly unit and job order
charges. An additional UTTR control was that an analyst compared the automated billing report
with a budgeting summary report and with the customer’s cost estimate to identify and correct
discrepancies.

REVIEW OF WDTC, NUWC KEYPORT, NTTR, AND UTTR INTERNAL CONTROLS

WDTC, NUWC Keyport, NTTR, and UTTR internal controls over 42 tests reviewed, valued at
$27.2 million, were effective as they applied to the audit objectives.

AUDIT STANDARDS

We conducted this audit under Project No. D2009-D000AB-0111.000 from January 2009 to
April 2009, but it was suspended to provide audit resources to higher priority, congressionally
mandated audit projects. The audit resumed in September 2010 through January 2011.
Generally accepted government auditing standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objectives.

AUDIT METHODOLOGY

We visited NUWC Keyport, Washington, NTTR Nellis AFB, Nevada, UTTR Hill AFB, Utah,
and the West Desert Test Center at Dugway Proving Ground, Utah. At each location, we
reviewed a list of test events conducted during FY 2008 and judgmentally selected tests with the
highest dollar values from each range. We also reviewed range operations, the business office
procedures, and test charges accounting records. We used this supporting documentation to
determine whether MRTFBs were properly charging DoD users of the test facility for direct
costs identifiable with a particular program in accordance with the DoD FMR volume 11A,
chapter 12, revised April 2008.

USE OF COMPUTER-PROCESSED DATA

We used computer-processed data to perform this audit. Specifically, we used tables that were a
summary of test events during FY 2008 generated by DIFMS Support Services Query and
Reporting, SOMARDS, and JOCAS II systems, which included the date of the test and dollar
amount and compared it with spreadsheets that provided a breakdown of the expenses for
individual tests. Some of the expenses were calculated based on cost rates that were generated
by cost estimates divided by the planned frequency of event multiplied by the number of units.
We tested the accuracy of this data by comparing the total cost of an individual test from a
summary spreadsheet with the supporting documentation that presented a breakdown of costs by
cost centers. From these procedures, we concluded that the data were sufficiently reliable for our
purposes of identifying direct costs to particular programs.

                                                5

 
PRIOR COVERAGE

During the last 5 years, the DoD IG and the Air Force Audit Agency (AFAA) have issued
10 reports that discuss MRTFB fees. The subject Unrestricted DoD IG reports can be accessed
at http://www.dodig.mil/audit/reports. Air Force Audit Agency reports can be accessed from
.mil domains over the Internet at https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-
AD-01-41 by those with Common Access Cards.
DoD IG
DoD IG Report No. D-2008-128, “Reimbursable Fees at the Major Range and Test Facility
Bases,” September 10, 2008
DoD IG Report No. D-2007-036, “Report on Contracting Practices at the Major Range and Test
Facility Bases,” December 27, 2006
AFAA
AFAA Report No. F2008-0002-FC3000, “Air Force Major Range and Test Facility Base
Customer Rate and Institutional Cost Management,” January 31, 2008
AFAA Report No. F2008-0021-FBM000, “Air Force Major Range and Test Facility Base
Customer Rate and Institutional Cost Management 30th Space Wing Vandenberg AFB, CA,”
January 17, 2008
AFAA Report No. F2008-0023-FDD000, “Air Force Major Range and Test Facility Base
Customer Rate and Institutional Cost Management Air Armament Center Eglin AFB, FL,”
December 17, 2007
AFAA Report No. F2007-0063-FBS000, “Air Force Major Range and Test Facility Base
Customer Rate and Institutional Cost Management 98th Range Wing Nellis AFB, NV,”
September 4, 2007
AFAA Report No. F2007-0050-FDD000, “McKinley Climatic Laboratory Customer
Classification and Funding Air Armament Center Eglin AFB, FL,” June 12, 2007
AFAA Report No. F2007-0039-FCI000, “Air Force Major Range and Test Facility Base
Customer Rate and Institutional Cost Management 388th Fighter Wing Hill AFB, UT,”
May 15, 2007
AFAA Report No. F2007-0035-FCI000, “Air Force Major Range and Test Facility Base
Customer Rate and Institutional Cost Management Air Force Flight Test Center Edwards AFB,
CA,” May 9, 2007
AFAA Report No. F2006-0004-FC3000, “Implementation of the Fiscal Year 2003 National
Defense Authorization Act, Major Range and Test Facility Base Funding Process,” August 23,
2006




                                             6

 
We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604­
9201 (DSN 664--9201). If you desire, we will provide a formal briefing on the results.




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management




                                                7

